FEC -- Audit of Accounts Payable Balance as of 9/30/95:  Executive Summary
Federal Election Commission
Office of Inspector General -- Audit Report
FEC Enforcement of the Freedom of Information Act:  Executive Summary
June 7, 1996
If you require the entire printed version of the audit report, contact the Office of Inspector General, Federal Election Commission, 999 E Street, NW, Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant, phone: (202) 694-1015, fax: (202) 501-8134, or e-mail: dmaddox@fec.gov.
Executive Summary
The Office of Inspector General recently completed a
compliance audit of the Federal Election Commission's enforcement of the
Freedom of Information Act (FOIA). The audit covered Calendar
Year 1994. The objective of our audit was to determine if the
Federal Election Commission (FEC) was in compliance with key
administrative provisions of the Freedom Of Information Act.
This compliance audit was designed to provide reasonable
assurance about compliance with FOIA.  In complying with
Government auditing standards, we obtained an understanding of
management controls relevant to this audit.  Management is
responsible for establishing effective controls.  Controls over
compliance with laws and regulations include policies and
procedures that management has implemented to reasonably ensure
that resource use is consistent with laws and regulations. Key
administrative procedures include the following:
(1)	notifying the requester within ten (10) work days
of the agency decision to provide, or not provide,
the information.
(2)	searching for, retrieving documents.
(3)	reviewing documents to determine whether they
should be released or denied under the nine (9)
specific FOIA exemptions.
The FOIA, as amended in 1976, provides the basic authority and
procedures for the public to obtain documents from the executive
branch of the federal government. The Act states that agencies
are to determine within ten (10) working days after receipt of a
FOIA request whether to comply and then are to immediately notify
the requester of their decision. A FOIA request is a request made
by the public, in writing, for non-exempt government
records/information which have not already been made public.
The Act also provides that an agency can grant itself an
extension of up to ten (10) working days in particular
circumstances.  When a requester has not received the agency's
decision within these time limits, the requester may seek legal
action through a federal district court.  According to the Act,
"if the government can show exceptional circumstances exist and
that the agency is exercising due diligence in responding to the
request," the court may allow the agency additional time to
complete its review of the request.
In order to determine compliance with the Act we reviewed the
overall structure in place to implement the Act and the current
indexes identifying available information.  Additionally, we
reviewed the adequacy of administrative procedures in place to
process requests and the reliability and accuracy of statistics
reported in the annual report to Congress and the FEC Annual
Report for CY 1994.
SUMMARY OF RESULTS OF COMPLIANCE TESTING
Our compliance audit found that a structure is in place to
implement the Act and identifying information indexes were made
available. However, we are making recommendations to strengthen
compliance with administrative procedures and reporting
requirements.  The following summarizes the findings and
recommendations, management's response to the findings and the
OIG conclusions.  A more detailed discussion of each finding,
including criteria, is contained in the report narrative.
Finding 1
For Calendar Year 1994, the manual log contained incomplete
entries and lacked, in some cases, dates of the initial response
to requester on the decision as to whether to provide the
information or not.  Also, entries did not include relevant
information regarding the requester, legal review and final
disposition of the request.  There were two oral requests entered
in the manual log.
The FOIA and FEC regulation contains administrative requirements
which address the timelines of the response to the request, legal
review for release and final disposition of the request. A
current manual log of FOIA activity documents compliance with
these administrative procedures, particularly the ten (10) day
response requirement.
Recommendation
We recommended that the log be revised and the acceptance of oral
requests be discontinued.
Management agreed to revise and the log but will continue to
process oral requests.  While the OIG acknowledges that the FOIA
Officer intends to revise the log, we disagree with the decision
to process oral requests.
Finding 2
The FEC is not in compliance with the requirement to collect fees
unless waived for certain groups.
Recommendation
We recommended that the FOIA Officer identify those groups that
will have fees waived or reduced. If fees are to be charged for
certain groups, the FOIA Officer should determine an amount above
which a fee will be charged.  In accordance the Act and the FEC
regulation, the FOIA Officer should charge commercial users and
remit the funds to the U.S. Treasury.
Management stated that in order to avoid confusion in the future,
the new log will stipulate fees and reasons for waivers.  The OIG
agreed with management's response.
Finding 3
The CY 1994 Report to Congress was not submitted on March 1, 1995
as required.
Recommendation
The report should be submitted to Congress by the FOIA Officer by
March 1 of each year. The report should be based on the number of
FOIA requests entered in the manual log.
Management responded that the delays were due to staff
transitions and workload.  One report covering both Calendar
Years 1994 and 1995 is being prepared.  We agreed with
management's response.
Finding 4
The CY 1994 FEC Annual Report overstated both the number and cost
of FOIA requests because the statistics included non-FOIA
requests.  Of the 645 requests reported, there were 500 Direct
Access Program (DAP) requests and 62 requests for computer tapes.
The cost fees for materials requested under FOIA was reported to
be $20,960.  This was associated with the cost of processing
computer tapes.
Recommendation
We recommended that the DAP and computer tape program not be
processed and reported as a FOIA request since this information
has already been made public.
Management responded that this program is appropriately
processed under FOIA in order to minimize financial loss to the
agency.  Furthermore, the tracking system is simple and has not
been burdensome for the FOIA Office.  Even though we do not agree
that these are FOIA requests, the OIG will accept management's
response.